 Contents/Abbreviations
 DEPARTMENT        OF HOMELAND SECURITY

      Office of Inspector General




      Survey of DHS Data Mining Activities




      Office of Information Technology
            DHS’ Data Mining and Advanced Analytics Efforts Could Be Optimized
OIG-06-56                                                                        August 2006
                                                                          Office of Inspector General

                                                                          U.S. Department of Homeland Security
                                                                          Washington, DC 20528




                                          August 15, 2006


                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, effectiveness, and efficiency within
the Department.

This report identifies and describes a selection of the Department’s data mining and advanced
analytics that contribute toward counterterrorism efforts. It is based on direct observations,
review of applicable documents, and interviews with Department officials, program managers,
and technical staff.

It is our hope that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this report.




                                               Richard L. Skinner
                                               Inspector General
Executive Summary ...............................................................................................................................4

Background ............................................................................................................................................4

Results of Survey ...................................................................................................................................6

     Description of Identified Data Mining Activities ............................................................................6

Management Comments ......................................................................................................................17

Appendices
     Appendix A:             Purpose, Scope, and Methodology .......................................................................18
     Appendix B:             Major Contributors to this Report ........................................................................19
     Appendix C:             Report Distribution...............................................................................................20

Abbreviations
     ACE S1   Automated Commercial Environment Screening and Targeting Release S1
     ADVISE   Analysis, Dissemination, Visualization, Insight, and Semantic Enhancement
     ATS      Automated Targeting System
     CBP      United States Customs and Border Protection
     CIO      Chief Information Officer
     CIS      United States Citizenship and Immigration Services
     CVS      Crew Vetting System
     DARTTS   Data Analysis and Research for Trade Transparency System
     DHS      Department of Homeland Security
     DOJ      U.S. Department of Justice
     FAS      Freight Assessment System
     FEMA     Federal Emergency Management Agency
     FLETC    Federal Law Enforcement Training Center
     I2F      Intelligence and Information Fusion
     ICE      Immigration and Customs Enforcement
     ICEPIC   Immigration and Customs Enforcement Pattern Analysis and Information
              Collection System
     IT       Information Technology
     NETLEADS Law Enforcement Analysis Data System
     NIPS     Numerical Integrated Processing System
     OCIO     Office of the Chief Information Officer
     OIA      Office of Intelligence and Analysis
     OIG      Office of Inspector General
     OLAP     On-Line Analytical Processing
     QID      Questioned Identification Documents


                                                   Survey of DHS Data Mining Activities
                                                                 Page 2
  RMRS       Risk Management Reporting System
  S&T        Science and Technology
  TISS       Tactical Information Sharing System
  TSA        Transportation Security Administration
  USSS       United States Secret Service
  US VISIT   United States Visitor and Immigrant Status Indicator Technology
  VISAT      Vulnerability Identification Self-Assessment Tool

Tables
  Table 1    Common Data Mining Uses ...................................................................................6
  Table 2    Expert Systems .......................................................................................................8
  Table 3    Association Processes...........................................................................................10
  Table 4    Threat and Risk Assessment Tools ......................................................................12
  Table 5    Collaboration and Visualization Processes ..........................................................14
  Table 6    Advanced Analytics .........................................…………………………………17




                                 Survey of DHS Data Mining Activities
                                               Page 3
Executive Summary
                           We surveyed the Department of Homeland Security (DHS) to identify and
                           describe data mining activities used to support the counterterrorism
                           mission. Data mining and advanced analytics are evolving technologies
                           that assist in the discovery of patterns and relationships from vast
                           quantities of data. Data mining employs techniques from statistics,
                           machine learning, database management, and visualization. These
                           techniques aid the work of analysts, agents, and investigators and provide
                           knowledge in a manner that aids and informs decision-makers. While
                           various definitions of data mining exist, for the purpose of our survey we
                           defined data mining in a manner to broadly illustrate the range of
                           applications and tools that the Department uses to assist DHS personnel
                           with knowledge discovery, predictive modeling, and analytics.

                           We identified 12 systems and capabilities that DHS personnel use to
                           perform data mining activities to support DHS’ mission of counter-
                           terrorism. Nine systems are operational and three systems are under
                           development. While these data mining activities may perform various
                           processes, we categorized and arranged our descriptions in a way that
                           describes selected data mining processes and tools ranging from basic to
                           advanced analytical tasks. The categories include expert systems,
                           association processes, threat and risk assessment tools, collaboration and
                           visualization processes, and advanced analytics.

Background
                           While various definitions of data mining exist, we defined data mining to
                           be the process of knowledge discovery, predictive modeling, and
                           analytics. Traditionally, this involves the discovery of patterns and
                           relationships from structured databases of historical occurrences.1
                           However, data mining technology has expanded to include different
                           processes, technologies, and methodologies.2

                           Since the early 1900s, prediction has been a central goal of traditional
                           statistics. The tools used for prediction have matured and evolved over
                           time. For example, during the 1980s, analysts in the field of artificial
                           intelligence took advantage of increased computing power to surpass
                           statistical techniques by introducing new methods of prediction,
1
 Traditional data mining infers rules or codes to predict future results via classification or segmentation processes.
2
 Related data mining processes include name matching, and entity, event, and expression extraction from
unstructured content such as text, images, audio and video; the clustering of observations or events; aberration or
anomaly detection; information matching and sharing via link analysis; visualization; and, the generation of alerts to
personnel or other software agents.

                                         Survey of DHS Data Mining Activities
                                                       Page 4
                           classification, and clustering using neural networks, self-organizing maps,
                           genetic and machine learning algorithms capable of pattern recognition in
                           extremely large databases with precise accuracy.3 Today, data mining
                           activities have been incorporated into sophisticated analytical, modeling,
                           and predictive systems to perform pattern recognition analysis of
                           structured and unstructured data.4,5

                           Analytics and modeling have become so pervasive and essential to private
                           industry that they are the drivers of business intelligence for many
                           different enterprises. Incorporating data mining tools into analytical
                           processes provides benefits to organizations as well as their analysts, such
                           as expanding and entering into new opportunities for business; identifying
                           and maintaining best customer prospects; quickly adapting operations for
                           changes in supply or demand; identifying parameters that influence trends
                           in sales; and, optimizing business operations and performance. Although
                           data mining does not replace the expertise that an analyst provides it
                           automates some of the laborious tasks that an analyst performs, as well as
                           aids in summarizing large quantities of data into meaningful information
                           with which the analyst can work. The roots of these sophisticated
                           intelligence systems are in traditional statistics, machine learning, Internet
                           standards, software agents, and computational linguistics.6,7

                           Some key goals of data mining are: to understand behaviors; to forecast
                           trends and demands; to track performance; and, to transform seemingly
                           unrelated data into meaningful information. Today, private industry and
                           government use data mining as part of their normal course of business, as
                           illustrated in Table 1.




3
  Algorithms provide step-by-step details for particular ways of implementing data mining techniques, such as
neural networks, decision trees, self-organizing maps, Bayesian networks, and machine learning.
4
  Structured data refers to sources, which represent a collection of records stored in a computer in a systematic way,
with each record organized in a definitive schema, describing the objects that are represented in the database and the
relationships among them.
5
  Unstructured data refers to computerized information, which does not have a data structure. This may include
audio, video and unstructured text such as e-mails or documents
6
  Software agent is a program that can exercise an individual’s or organization’s authority, work autonomously
toward a goal, and meet and interact with other agents.
7
  Computational linguistics is an interdisciplinary field dealing with the statistical and logical modeling of natural
language from a computational perspective. Computational linguistics originated with efforts in the United States in
the 1950s to have computers automatically translate foreign languages into English.

                                         Survey of DHS Data Mining Activities
                                                       Page 5
                         Table 1: Common Data Mining Uses
                          COMMERCIAL USES
                               •   To analyze and segment customer buying patterns and identify
                                   potential goods and services that are in demand.
                               •   To identify and prevent fraudulent and abusive billing practices.
                               •   To analyze sales trends and predict the effectiveness of promotions.
                               •   To predict the effectiveness of surgical procedures, medical tests, and
                                   medications.
                               •   To search information from a number of documents and written
                                   sources on a particular topic (text mining).
                               •   To identify trends and present statistics in ways that are easily
                                   understood and useful.
                          GOVERNMENT USES
                               •   To monitor expenditures of employee travel and purchase cards.
                               •   To quickly access information that speeds up the overall security
                                   clearance investigation process for employees.
                               •   To identify improper payments under federal benefit and loan programs
                                   and help detect instances of fraud, waste, and abuse.
                               •   To rank programs quickly by using established performance indicators.
                               •   To assist law enforcement in combating terrorism.




Results of Survey

        Description of Identified Data Mining Activities
                         The Homeland Security Act of 2002 requires DHS to use data mining tools
                         and other advanced analytics to access, receive and analyze law
                         enforcement and intelligence information for the purpose of identifying
                         potential threats of terrorism within the United States.8 While serving as
                         Assistant Attorney General of the Criminal Division of the U.S.
                         Department of Justice (DOJ), the Secretary of DHS stated that data mining
                         is a promising tool in thwarting terrorism, too.9 DHS is using data mining
                         to achieve its strategic goals of awareness and prevention. Under the
                         strategic goal of awareness, it is the Department’s duty to identify and
                         understand threats, assess vulnerabilities, determine potential impacts and
                         disseminate timely information to its homeland security partners and the
                         public.10 DHS is also committed to the prevention of terrorism by
                         implementing the technologies and capabilities to detect and prevent
                         terrorist attacks.11 Advances in pattern recognition, networking, and
                         encryption technologies provide DHS a means by which it can more

8
  Homeland Security Act of 2002, 6 U.S.C. § 121(d)(14) (2002).
9
  The Financial War on Terrorism and the Administration's Implementation of the Anti-Money Laundering
Provisions of the USA Patriot Act: Hearing Before the Senate Comm. on Banking, Housing, and Urban Affairs,
107th Cong. (2002) (statement of Michael Chertoff, Assistant Att’y Gen., Criminal Div. U.S. D.O.J.).
10
   Securing Our Homeland: U.S. Department of Homeland Security Strategic Plan, 9 (February 24, 2004).
11
   Securing Our Homeland: U.S. Department of Homeland Security Strategic Plan, 16 (February 24, 2004).

                                      Survey of DHS Data Mining Activities
                                                    Page 6
                             efficiently “connect the dots” to combat terrorism and secure the United
                             States.12

                             We identified 12 systems and capabilities within DHS that support data
                             mining activities. They reside within United States Customs and Border
                             Protection (CBP), Immigration and Customs Enforcement (ICE), Office of
                             Intelligence and Analysis (OIA), United States Secret Service (USSS), and
                             Transportation Security Administration (TSA). Those systems and
                             capabilities perform a variety of functions that contribute toward the
                             counterterrorism effort. Nine systems are operational and three systems
                             are under development.

                             In the following section, we describe the 12 data mining activities
                             identified during our review. While these activities perform various
                             analytical processes, we grouped them to illustrate five types of analytics
                             performed at DHS: expert systems; association processes; threat and risk
                             assessment tools; collaboration and visualization processes; as well as
                             advanced analytics.

                             Expert Systems

                             An expert system is a class of computer programs first developed by
                             researchers in artificial intelligence during the 1970s. In essence, these
                             programs were made up of a set of human-developed rules that analyze
                             information about a specific class of problems, as well as provide analysis
                             of the problem(s), and - depending upon their design - recommend a
                             course of action for the user.

                             We identified two systems in the Department that are considered expert
                             systems: the Automated Commercial Environment Screening and
                             Targeting Release S1 (ACE S1); and, the Freight Assessment System
                             (FAS). Table 2 summarizes information regarding their respective
                             purposes.




12
     Encryption is the process of obscuring information to make it unreadable.

                                           Survey of DHS Data Mining Activities
                                                         Page 7
                            Table 2: Expert Systems
                                                                  Expert Systems
                                      A group of computer programs comprised of a set of human-developed
                                         rules that analyze information about a specific class of problems.
                             Data Mining Activity    Purpose                             Directorate Mission
                             Automated Commercial    Identifies the highest risk cargo   CBP – Prevent terrorists and terrorist
                             Environment Screening   shipments for further detailed      weapons from entering the United
                             and Targeting Release   examination by agents and           States by eliminating potential
                             S1 (ACE S1)             inspectors.                         threats before they arrive at our
                                                                                         borders and ports.
                             Freight Assessment      Currently under development.        TSA – Protect the Nation’s
                             System (FAS)            Pre-screens and identifies cargo    transportation systems to ensure
                                                     that has an elevated risk,          freedom of movement for people and
                                                     enabling agents to use efficient    commerce.
                                                     inspection methods for cargo.


                            CBP’s ACE S1 release is part of a long-term plan for modernizing the
                            screening and targeting of high-risk shipments to assist agents and
                            inspectors at our borders. It employs an expert system, the Automated
                            Targeting System (ATS), that uses electronic shipment data to search
                            criteria that could indicate high-risk cargo. ACE S1 primarily uses
                            custom-built software to perform basic data mining and includes features
                            such as the ability to establish a centralized database to store all screening
                            and targeting criteria and results. Future releases include plans for
                            extracting knowledge out of unstructured data and integrating disparate
                            data and observations and prototypes, such as geospatial event mapping.

                            While ACE S1 automates the use of information to sort high-risk cargo
                            entering the U.S. and targets it for further examination or inspection, there
                            are some limitations to the system. For example, it uses a business rules
                            engine to enhance screening capabilities for manifest and entry
                            transactions.13 These business rules have values associated with an
                            individual such as an importer, manufacturer, or broker. Based on these
                            values, the business rules engine makes a request to take some action
                            regarding a transaction, such as perform a document review, conduct an
                            examination, or stop an individual. Business rules can be modified through
                            user committees, which can reinforce or introduce new biases into the
                            rules engine. Currently, ACE S1 does not include an automated
                            mechanism to enable CBP to objectively measure or assess the accuracy,
                            performance, or error rates of the rules. As a result, CBP might not be able
                            to determine if the system does what it was originally developed to do.
                            The system performs analysis based on limited data types, although
                            capable of processing data from other sources.



13
 Business rules engine refers to a set of rules for entering data in a database that are specific to an enterprise's
methods of conducting its operations.

                                          Survey of DHS Data Mining Activities
                                                        Page 8
                            The second system we identified as using expert system technology is
                            FAS. TSA is developing FAS to pre-screen cargo before it enters our
                            nation’s transportation system. FAS will identify cargo that has an
                            elevated risk. The identified cargo will be flagged and set aside for further
                            inspection by air carriers. To reduce the current reliance on random
                            inspections, FAS plans on using a (human-developed) risk rules engine.

                            Currently, performance of the risk model and the targeting effort are
                            evaluated through the use of a series of statistical analysis and data quality
                            reports. Without taking into account anomalies, TSA staff will not know if
                            the system and the rules are performing as intended.14 TSA’s future plans
                            include incorporating automated analysis (machine-based rules) and using
                            additional data sources to identify and assess high-risk cargo.

                            TSA is developing FAS by using historical data on past shipments.
                            Designers are trying to identify unique information elements for pattern
                            recognition. A test of this approach during a pilot phase of FAS revealed
                            the need to use a larger population for testing. Since TSA does not have a
                            large historical database to help it develop indicators to build the rules,
                            TSA plans to develop and incorporate predictive indicators in the future.

                            One unique problem that TSA faces in using FAS is that it does not
                            regulate shippers.15 Therefore, the information that TSA has on shippers is
                            provided on a voluntary basis, which limits the amount and type of data
                            that it receives.16 TSA plans to use additional sources of information,
                            which will aid TSA by verifying the shipping company’s identity and
                            legitimacy. Additionally, vetting shippers through additional sources, such
                            as using information from reports of shipper violations, will help TSA
                            identify known shippers.

                            Association Processes

                            Association refers to the process of discovering two or more variables that
                            are related. Association, however, does not imply a direct causal
                            connection between the associated variables. This process operates across
                            a variety of platforms and can quickly search through vast sources of data
                            to identify co-existence. It employs algorithms to perform link analysis

14
   Anomaly detection compares a profile of allowed or expected attributes against a population, with any deviation
from that profile flagged as a potential risk.
15
   Known shippers are entities that have routine business dealings with freight forwarders or air carriers and are
considered trusted shippers. In contrast, unknown shippers are entities that have conducted limited or no prior
business with a freight forwarder or air carrier.
16
   According to a TSA official, TSA has issued a Final Rule that will require all air carriers and indirect air carriers
to provide all known shipper information to the TSA-managed Known Shipper Management System by December
1, 2006.

                                          Survey of DHS Data Mining Activities
                                                        Page 9
and to uncover associations that are normally difficult to detect. For
example, association processes can show that persons A, B, and C are at
the same location at the same time. Link analysis is used to uncover,
interpret, and display relationships between persons, places, and events in
a visual format.

We identified four data mining activities that use association processes to
perform analysis. These are Data Analysis and Research for Trade
Transparency System (DARTTS), Immigration and Customs Enforcement
Pattern Analysis and Information Collection System (ICEPIC), Law
Enforcement Analysis Data System (NETLEADS), and Crew Vetting
System (CVS). Table 3 summarizes information regarding their respective
purposes.

Table 3: Association Processes
                                Association Processes
              The process of discovering two or more variables that are related.
Data Mining Activity     Purpose                             Directorate Mission
Data Analysis and        Assists agents in identifying and
Research for Trade       detecting money laundering, drug
Transparency System      trafficking, and other illegal
(DARTTS)                 activities through financial
                         transactions.                     ICE – Protect the United States and
                                                           uphold public safety by identifying
                                                           criminal activities and eliminating
Immigration and          Enables investigators to conduct vulnerabilities that pose a threat to
Customs Enforcement      targeted checks of non-resident   our nation’s border, as well as
Pattern Analysis and     aliens and provides leads for the economic, transportation, and
Information Collection   disruption of potential terrorist infrastructure security.
System (ICEPIC)          activities.
Law Enforcement          Supports agents in identifying
Analysis Data System     criminal activity patterns and
(NETLEADS)               trends and associations among
                         criminal organizations.
Crew Vetting System      Assists analysts in screening air   TSA – Protect the Nation’s
(CVS)                    carrier personnel to ensure the     transportation systems to ensure
                         security of air transportation.     freedom of movement for people and
                                                             commerce.


DARTTS is a legacy system of the former U.S. Customs Service. It was
developed to assist agents in identifying and detecting money laundering,
drug trafficking, and other illegal activities. This system now resides under
ICE. This small-scale, stand-alone system uses commercial off-the-shelf
software to aid in the analysis of structured data found in databases.
System owners from the ICE Financial and Trade Investigation’s Trade
Transparency Unit are collaborating with the ICE Office of the Chief
Information Officer and Information Systems Security Manager to provide
DARTTS to users in a web environment.

DARTTS allows for data mining and analysis that is not available in other
systems. For instance, this system allows the user to produce aggregate

              Survey of DHS Data Mining Activities
                           Page 10
                           totals for importation of currency, and then sort based on any number of
                           variables, such as country of origin, party name, or total currency value.
                           The ICE Financial and Trade Investigations Division’s Trade
                           Transparency Unit also uses DARTTS as its platform for sharing and
                           analyzing U.S. and foreign trade data, pursuant to Customs Mutual
                           Assistance agreements. This allows the user to see the “bigger picture”--
                           permitting investigators to identify anomalies that can be indicative of
                           trade-based money laundering or other import-export crimes.

                           The second association process, ICEPIC, was developed to assist
                           investigators in meeting the goal of disrupting and preventing terrorism
                           activities. ICEPIC is a small-scale system that employs a variety of
                           commercial off-the-shelf software and government off-the-shelf software
                           to support criminal investigators. ICEPIC employs matching to integrate
                           and confirm information from structured data sources in DHS databases. It
                           uses associations for discovery of patterns and relationships. The system
                           connects to ICE’s network to aid investigators in generating leads,
                           conducting batch queries of names, and reporting.

                           ICE uses a third system, NETLEADS, in the area of criminal
                           investigations. It is a web-enabled intelligence and investigations analysis
                           database repository. NETLEADS tools give users the capability to rapidly
                           search and conduct analysis. It is designed to support agents in identifying
                           criminal activity patterns, trends and associations among criminal
                           organizations. It uses commercial off-the-shelf products to discover
                           relationships within data.

                           The system consists of fifty million indexed names, intelligence, subject
                           records, investigation reports, and global intelligence information on
                           topics such as smuggling, terrorism, and transnational trends. NETLEADS
                           provides an integrated common interface for querying intelligence and
                           enforcement applications and data.

                           NETLEADS includes hosted data marts of intelligence and investigative
                           information.17 The system was built based on proprietary design and uses
                           associations and name matching, and queries data. Investigators and
                           analysts use it for identifying connections between persons of interest or
                           persons under investigation. The users can access multiple government
                           and commercial databases to discover patterns and relationships. Benefits
                           of this system include providing the capability to search multiple

17
  A data mart is a specialized version of a data warehouse. Like data warehouses, data marts contain a snapshot of
operational data that helps people to strategize based on analyses of past trends and experiences. In contrast to a data
warehouse, the creation of a data mart is predicated on a specific, predefined need for a certain grouping and
configuration of selected data.

                                         Survey of DHS Data Mining Activities
                                                      Page 11
databases and assemble information into a common analytical
environment.

The last system we identified as using an association process is CVS. TSA
uses this system to screen commercial air carrier personnel to help ensure
the security of air transportation. CVS encompasses the Flight Crew
Manifest and Master Crew List vetting. These two sub-programs ensure
that 100% of the crew members of commercial air carriers flying into, out
of, over, and through the U.S. are vetted on a recurring basis. The Flight
Crew Manifest process ensures that the actual people on the aircraft are
vetted each time they fly. The Master Crew List population is subject to
perpetual vetting, therefore whenever there is any change in data or
placement on or removal from a watch list, the system triggers a
notification that new data has resulted in a match, which is then referred
for appropriate action.

CVS uses proprietary software to perform data element matching of
names, social security numbers, passports, and other pertinent information.
It also uses commercial-off-the shelf products for error checking and
message processing and logging.

Threat and Risk Assessment Tools

Risk management is the process of identifying risk, assessing risk, and
taking steps to reduce risk to an acceptable level. Threat and risk
assessments are widely recognized as decision support tools to establish
and prioritize security program requirements. A risk-based approach
allows organizations to make better judgments about where to deploy
resources and where to prioritize protection efforts.

We identified one tool, the Risk Management Reporting System (RMRS),
which uses a threat and risk-based approach to analyze results and conduct
data mining activities. RMRS generates risk-assessed scores for assets
based on advanced analytics. Table 4 summarizes information regarding
its purpose.

Table 4: Threat and Risk Assessment Tools
                        Threat and Risk Assessment Tools
   Decision support tools that enable the deliberate, analytical approach to identify which
           threats can exploit vulnerabilities in an organization’s specific assets.
Data Mining Activity     Purpose                              Directorate Mission
Risk Management          Collects information and             TSA – Protect the Nation’s
Reporting System         generates a score based on level     transportation systems to ensure
(RMRS)                   of risk for assets comprising our    freedom of movement for people and
                         Nation’s critical infrastructures.   commerce.



             Survey of DHS Data Mining Activities
                          Page 12
RMRS is a stand-alone system that TSA uses to store and analyze risk.
Because RMRS is flexible and modular, it has the capability to store and
analyze risk for assets including, but not limited to, maritime facilities and
vessels, airports, mass transit, and public assembly facilities such as
stadiums and arenas. RMRS generates a score based on the level of risk
associated with a particular asset. The information that RMRS has in its
database is reported by facility managers, security personnel, and law
enforcement agents and entered into one of the available tools associated
with RMRS, such as TSA’s Vulnerability Identification Self-Assessment
Tool (VISAT).

VISAT is a voluntary, on-line assessment tool that helps transportation
asset owners and operators enhance the security for assets including
maritime vessels, heavy railways, subways, rail stations, and highway
bridges. The goal of VISAT is to raise the level of security awareness in
public assembly facilities nationwide and to establish a common baseline
of security awareness from which these facilities can build their protection
plans. In addition to VISAT, RMRS captures asset information from tools
that TSA field inspectors use when conducting independent inspections.
RMRS processes the information captured from these tools using
algorithms to generate a level of impact score to assess the likelihood of a
terrorism attack, attractiveness of the target, and the consequences of an
act of terrorism. RMRS also captures and analyzes criticality information,
including potential life-threatening, economic, and psychological impacts
from threat scenarios when applied to particular assets.

Collaboration and Visualization Processes

Collaboration and visualization processes assist agents, analysts, and
investigators in collecting and analyzing information. Collaboration is the
strategic management process of collecting, tagging, classifying,
organizing, and applying an organization’s internal content and expertise.
Visualization processes aid in analyzing data sets by defining views,
highlighting findings, navigating on specific features to find trends, and
pinpointing exceptions. Data visualization simplifies the presentation of
information while maintaining the integrity and depth of the information.
These technologies can also easily deal with very large and highly non-
homogeneous amounts of data.

We identified four processes that primarily use collaboration or
visualization to perform data mining activities. These are Intelligence and
Information Fusion (I2F), Numerical Integrated Processing System
(NIPS), Questioned Identification Documents (QID), and Tactical


            Survey of DHS Data Mining Activities
                         Page 13
Information Sharing System (TISS). Table 5 summarizes information
regarding their purposes in relation to the respective missions.

Table 5: Collaboration and Visualization Processes
                          Collaboration and Visualization Processes
             The strategic management process of collecting, tagging, classifying,
           organizing, and applying an organization’s internal content and expertise
            Presents the data sets by defining views, highlighting findings, flagging
                               exceptions, etc in large data sets.
Data Mining
                        Purpose                             Directorate or Critical Agency Mission
Activity
Intelligence and        Currently under development.         OIA – Gather, analyze, and disseminate
Information Fusion      Will provide information analysts information in a mission-oriented manner.
(I2F)                   with state-of-the-art analysis tools
                        that aid in the discovery and
                        tracking of terrorism threats to the
                        U.S. population and
                        infrastructure.
Numerical Integrated Assists agents in identifying          ICE – Protect the United States and
Processing System    anomalies indicative of criminal       uphold public safety by identifying
(NIPS)               activity, such as immigration          criminal activities and eliminating
                     violations, customs fraud, export      vulnerabilities that pose a threat to our
                     violations, drug smuggling, and        nation’s border, as well as economic,
                     terrorism.                             transportation, and infrastructure
                                                            security.
Questioned              Allows analysts to compare          USSS – Protect key individuals and
Identification          questionable documents against      investigate crimes related to
Documents               genuine documents such as           counterfeiting and financial sector,
(QID)                   passports and drivers licenses.     including identity theft, computer fraud,
                                                            and cyber attacks.

Tactical Information    Captures observations of            TSA – Protect the Nation’s transportation
Sharing System          suspicious activities in aviation   systems to ensure freedom of movement
(TISS)                  and provides law enforcement        for people and commerce.
                        officials with information for
                        examining long-term trends and
                        patterns.


The purpose of the I2F is to make operational an integrated intelligence
and information capability for DHS. This capability will enable
intelligence analysts to understand relationships that would otherwise not
be readily apparent. I2F is in early development and is primarily
dependent on the analyst manually processing, compiling, and analyzing
data. The next version of the system will be a set of tools and technologies
integrated to support the intelligence analyst.

I2F provides intelligence analysts with tools that aid in the discovery and
tracking of terrorism threats to the United States population and
infrastructure. I2F is principally made up of commercial off-the-shelf
software, but also integrates government off-the-shelf programs. These




                 Survey of DHS Data Mining Activities
                              Page 14
                          programs are used for entity extraction, search capabilities, and link
                          analysis.18

                          The second system, NIPS, is a web-based strategic analytical tool used by
                          DHS agents and analysts to manipulate, compare, and analyze large data
                          sets of commercial, passenger, financial, and enforcement data.
                          Stakeholders in this project include the ICE Intelligence Division, ICE
                          Field Intelligence Units, ICE Office of Investigations, CBP Intelligence
                          Division, CBP Office of Field Operations, CBP National Targeting
                          Center, Container Security Initiative, and Customs Trade Partnership
                          against Terrorism.

                          NIPS enables users to identify anomalies that are indicative of possible
                          criminal activity, including illicit actions in support of terrorism, money
                          laundering, tax evasion, weapons proliferation, immigration violations,
                          and drug smuggling. Using an On-Line Analytical Processing (OLAP)
                          tool, NIPS leverages a manual approach to quickly respond to ad hoc
                          queries across multiple databases.19

                          Functional capabilities include link analysis, rule based intelligence,
                          power search, summary reports, and geospatial integration. According to a
                          senior ICE official, NIPS greatly enhances the overall capability of DHS
                          to identify, target, and disrupt potential acts of terrorism.

                          The third system that uses collaboration is QID. QID assists analysts in
                          evaluating whether a document is counterfeit. Security personnel at
                          airports, seaports, and borders use QID as a validation tool to view
                          samples of internationally-issued identity documents. Specifically, it
                          allows analysts to compare questionable documents against genuine
                          documents, such as passports and drivers licenses. QID has Intranet
                          connectivity as well as the capability to identify associations and patterns
                          to determine if documents are genuine. This process provides suggestions
                          to the analyst on what to look for in making a determination about the
                          authenticity of a questioned document.

                          The fourth system that uses collaboration is TISS. This system facilitates
                          the collection of tactical information related to suspicious activity. It uses
                          a combination of technologies and domain awareness, so there is greater
                          capability to observe and report suspicious activities that may indicate

18
   Extraction is a technique for reducing the number of attributes used in the processes of classification,
segmentation, and pattern recognition. Within a document, entity extraction can also be customized to recognize
pattern-based, list-based entities, events, and relationships.
19
   OLAP enables users to analyze data across multiple dimensions, usually reserved to key business metrics such as
products, departments, regions, and time segments.

                                        Survey of DHS Data Mining Activities
                                                     Page 15
                           terrorist planning. TISS captures Federal Air Marshal Service observations
                           of suspicious activity in aviation. This system enables Federal Air
                           Marshals and other law enforcement officers in the field to report these
                           observations into the database for analysis using the TISS Analytic Tool.

                           In addition, TISS allows Federal Air Marshals to prepare and immediately
                           submit reports of suspicious activity to the Federal Air Marshal Service
                           Investigations Division. For example, an individual taking pictures of a
                           building or videotaping the operations of a maritime port may raise
                           suspicions compared to others who normally work or visit such locations.
                           This suspicious activity can be noted by security or law enforcement
                           officers and immediately entered into the system. As another example, if
                           an individual attempted to pass through airport security screening with a
                           handgun at two separate airports and on different occasions, the
                           surveillance reports that were entered into TISS could be used by the
                           Federal Air Marshal Service to establish a link between the incidents.

                           Advanced Analytics

                           Science and Technology (S&T) is developing an advanced analytics
                           capability called Analysis, Dissemination, Visualization, Insight and
                           Semantic Enhancement (ADVISE), as described in Table 6. ADVISE is an
                           advanced information technology that can integrate information and facts
                           from many different types of data. Since ADVISE is a “technology
                           framework,” it can be tailored and deployed for specific purposes and
                           areas of interest. For example, it is being developed to incorporate
                           chemical, biological, radiological, nuclear, and explosive threat and effects
                           data. It is intended to ingest data from a variety of sources, ranging from
                           highly structured content, such as database records, to unstructured
                           content, such as message traffic. Still in development, ADVISE will
                           connect information extracted from text and images, databases, and
                           simulation and modeling tools to provide a watch-and-warning system for
                           analysts.

                           ADVISE employs semantic graphs to determine relationships and patterns
                           among data and multiple visualization techniques to display the resulting
                           information.20 The Department seeks to predict threat and vulnerabilities,
                           such as through the detection of relationships between seemingly
                           disjointed entities. Semantic graphs organize data entities regarding threats
                           and vulnerabilities and link their relationships. Thus, hidden relationships
                           in the data are uncovered by examining the structure and properties of the

20
   A semantic graph is a network of heterogeneous nodes (a point at which two lines or systems meet or cross) and
links. Because these graphs are ideal for representing relationship and linkage information, they have emerged as a
key technology for organizing DHS data.

                                        Survey of DHS Data Mining Activities
                                                     Page 16
            semantic graph. For example, a simple semantic graph can link people,
            workplaces, and towns as well as indicate a relationship with various
            friends. Studying the links can assist in understanding the relationships
            between entities, and help identify threats and vulnerabilities. S&T
            expects ADVISE’s ability to apply the capabilities of semantic data
            fusion, link analysis, and unstructured text analysis will be a powerful
            capability that will allow analysts to find the expected and discover the
            unexpected.

            Table 6: Advanced Analytics
                                                 Advanced Analytics
                     Analysis, Dissemination, Visualization, Insight, and Semantic Enhancement
            Data Mining Activity       Purpose                               Component Mission
            Analysis, Dissemination,   Currently under development.          S&T- Protect the homeland by
            Visualization, Insight,    Integrates the various information    providing Federal and local officials
            and Semantic               analysis and synthesis,               with state-of-the-art technology and
            Enhancement (ADVISE)       visualization, and knowledge          resources.
                                       discovery component capabilities.
                                       Will incorporate comprehensive
                                       chemical, biological, radiological,
                                       nuclear, and explosive threat and
                                       effects data.




Management Comments
            We provided a draft version of this report to DHS’ OCIO and requested
            written comments from this office. In response, the OCIO indicated that it
            had no comments on the draft report.




                          Survey of DHS Data Mining Activities
                                       Page 17
Appendix A
Purpose, Scope, and Methodology




Our objective was to identify and describe DHS’ data-mining activities.
We researched various definitions and prepared a definition of data mining
that focused on applications and tools used for knowledge discovery and
analytics. We shared this definition with interviewees during our survey.

To obtain a selection of data mining activities for review, we extracted an
initial list of systems using key word searches on the DHS’ Trusted Agent
FISMA database. We refined the list by removing systems relating to
administrative functions or efforts that did not contribute toward DHS
counterterrorism efforts. We sent components lists to verify whether the
specified systems performed data mining activities and to add applicable
systems that were not on the list. Officials from FEMA, FLETC, and US
VISIT responded that they do not conduct any data mining activities.

We interviewed officials from the OCIO and the Privacy Office. We
conducted interviews with CIOs, program managers, and officials
representing CBP, CIS, FEMA, ICE, OIA, S&T, TSA, and USSS. The
purposes of our interviews were to clarify the objective of the system,
describe data mining activities, and obtain documentation. We collected
and reviewed technical information and documentation through a data call
to database administrators regarding the system, including tools and
techniques used to conduct data mining activities, too.

We conducted fieldwork in the Washington, DC metropolitan area. Our
analysis is based upon direct observation, review of applicable
documentation, and interviews. We conducted our survey from November
2005 through April 2006 under the authority of the Inspector General Act
of 1978, as amended, and according to generally accepted government
auditing standards.

The principal OIG points of contact for the survey are Frank Deffer,
Assistant Inspector General for Information Technology Audit (202) 254-
4100 and Marj Leaming, Director Special Projects Audit Division (202)
254-4172. Major OIG contributors to the survey are identified in
Appendix B.




            Survey of DHS Data Mining Activities
                         Page 18
Appendix B
Major Contributors to this Report




Special Projects Division

Marj Leaming, Director
Barbara Ferris, Audit Manager
Audilia Wedderburn, Auditor
Juliana Meek, Student Temporary Employment Program
Scott Binder, IT Auditor

Technical Consultants

Jesus Mena, Data Mining Consultant
Michael Pridgen, Database Consultant
Richard Streeter, Database Consultant

Advanced Technology Division

Michael Goodman, Security Engineer




             Survey of DHS Data Mining Activities
                          Page 19
Appendix C
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Assistant Secretary for Policy
Assistant Secretary for Public
DHS Legislative and Intergovernmental Affairs
DHS GAO OIG Audit Liaison
Director, Operations Directorate
Chief Privacy Officer
Chief Information Officer
Component Chief Information Officers

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




             Survey of DHS Data Mining Activities
                          Page 20
                Appendix C
                Report Distribution




Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations–
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.




                             Survey of DHS Data Mining Activities
                                          Page 21
